CREDIT CARD AGREEMENT
(Personal Accounts)

By requesting or accepting any Platinum Mastercard or
Cash Back World Mastercard account (individually or
collectively called “Credit Card account” or “Account”) with
Bank of the West, you agree to be bound by all the terms of
this Agreement and as applicable, the Bank of the West Cash
Back Rewards Program Rules. In this Agreement, the words
“you” or “your” mean everyone who has requested or
accepted a Credit Card account with us. The words “we,”
“us,” “our,” or “Bank” mean Bank of the West. If you do not
accept this Agreement or Program Rules, you must notify us
in writing within 5 days after receipt. Use of your card or any
feature (including a balance transfer) of your Credit Card
Agreement shall constitute acceptance of this Agreement
and Program Rules.
1. Use. Your Platinum Mastercard or Cash Back World
Mastercard (individually or collectively called “Card”) may be
used as a credit card for purchases of goods or services from
participating merchants (“Purchases”) or to get Cash
Advances from us or any other financial institution displaying
the “MasterCard” logo, or to purchase certain items such as
traveler's cheques, foreign currency, money orders, wire
transfers, lottery tickets, and (except as noted below) funds
to be used for wagers or gambling (all of which are
collectively referred to as “Cash Advances”) up to your Credit
Limit; provided, however, you may not use your Card (i) to
make Purchases or obtain Cash Advances for any illegal
transaction, or (ii) for any internet or online gambling
transactions. Transactions for online or internet gambling will
not be approved. If you use your Card for any illegal or
prohibited transaction, this Agreement also applies to such
transaction and you agree to pay any and all amounts related
to such transaction pursuant to the terms of this Agreement.
We may, in our sole discretion, restrict the use of or terminate
your Card if we notice excessive use of your Card or other
suspicious activities or if we reasonably believe the Card is
or has been used for one or more illegal or prohibited
transactions. You can also obtain a Cash Advance by writing
a special Mastercard check (“Convenience Check”). The
Cash Advance will be posted to your Credit Card account
when the Convenience Check reaches us. If you stop
payment on a Convenience Check, your Credit Card account
will be charged $16.00 (or as permitted by law) for each stop
payment. We may designate that only a portion of your Credit
Limit is available for Cash Advances. In addition, you may
request that we pay other creditors on your behalf and
transfer approved amounts to your Account (“Balance
Transfers”).
Your Card may also be used in certain automated terminals
to gain access to your Credit Card accounts. We have no
responsibility for the failure of any machine, merchant,
financial institution, or any other party to honor your Card.
Your Card and Credit Card account may be used only for
valid and lawful purposes. If you use or allow someone else
to use the Card or Credit Card account for any other purpose,
you will be responsible for such use and may be required to
reimburse us for all amounts or expenses we pay as a result
of such use.
2. Credit Limit. We will notify you of the Credit Limit for
each Credit Card account you have with us. You agree that
your total charges, including Purchases, Cash Advances,
Balance Transfers, INTEREST CHARGES, and fees that
may be due will not exceed your Credit Limit. If you do go
over your Credit Limit, you must repay the excess amount
immediately, and we may reduce the available Credit Limit of
any other Credit Card account you have with us until such
time the excess amount is repaid. You may apply to increase
your Credit Limit at any time but we are not obligated to
increase your Credit Limit at any time. Furthermore, we
reserve the right to lower your Credit Limit at any time. For
security reasons, we may limit the number or amount of
transactions that may be accomplished with your Card or
Credit Card account, and we have the right to limit
authorizations to make transactions if we consider it
BW-CCAG (Rev. 10/2020)

necessary to verify Payments received on your Credit Card
account. If we accept a payment from you in excess of your
outstanding balance, your available Credit Limit will not be
increased by the amount of the overpayment nor will we be
required to authorize transactions for an amount in excess of
your Credit Limit.
3. Temporary Reduction of Credit Limit. Merchants,
such as car rental companies and hotels, may request prior
credit approval from us for an estimated amount of your
Purchases, even if you ultimately do not pay by credit. If our
approval is granted, your available Credit Limit will
temporarily be reduced by the amount authorized by us. If
you do not ultimately use your Credit Card account to pay for
your Purchases or if the actual amount of Purchases posted
to your Credit Card account varies from the estimated
amount approved by us, it is the responsibility of the
merchant, not us, to cancel the prior credit approval based
on the estimated amount. The failure of the merchant to
cancel a prior credit approval may result in a temporary
reduction of your available Credit Limit, but will not increase
the amount you owe us under this Agreement.
4. Agreement to Pay. When you use your Card or Credit
Card account, or when you permit anyone to use it, you agree
to pay the amount of any and all transactions (including any
which may have been made in violation of this Agreement),
and the INTEREST CHARGES, and fees that may become
due as shown on the periodic statement. You agree that we
may change or cancel your Credit Card account at any time
without affecting your obligation to pay the amounts that you
owe under this Agreement.
5. Periodic Statement. Each month we will send you a
periodic statement for each Credit Card account you have
with us covering the previous billing period. We may not send
you a statement if your balance is less than $1 and there
were no transactions during the billing period. The statement
will have a “Statement Period Date”, “Statement Closing
Date” and a “Payment Due Date,” and will show, among other
things, your “Previous Balance,” your “New Balance,” and
your minimum monthly payment, which will be shown as
“Minimum Payment Due.”
6. Payment. You must make a payment by the “Payment
Due Date.” You have two choices: You may pay the entire
“New Balance” or you may pay in installments by paying at
least the “Minimum Payment Due.” When your payment is
properly received, we will allocate your payment in a manner
we determine except as otherwise required by law. The
Minimum Payment is applied first to fees, then to INTEREST
CHARGES and finally to principal. We apply the Minimum
Payment to balances with lower APRs, including introductory
APRs, before balances with higher APRs. Payments made in
excess of the Minimum Payment will be applied first to
balances with the highest ANNUAL PERCENTAGE RATE
(APR) and then to each successive balance bearing the next
highest ANNUAL PERCENTAGE RATE.
Payments must be mailed to the BankCard Center address
specified in your periodic statement and reach the BankCard
Center during our regular business day by 5:00 p.m. Pacific
Time for the payment to be credited the same business day.
Payments made in person at one of our branches, or made
by telephone, or made through our website or another
website controlled by a third party on our behalf must be
received by 5:00 p.m. Pacific Time to be credited the same
business day. Payments received after the cutoff time of 5:00
p.m. Pacific Time are credited as of the following business
day. If you fail to properly make payments, crediting of such
payments may be delayed and you may incur late charges
and additional interest as a result of the delay. Even when
your payment is credited to your Account, we may delay the
availability of part or all of your payment amount as credit for
up to 15 days.
If a payment is returned to us for any reason, we may
apply a Returned Payment Fee of $27 for the first violation
and $38 for each subsequent violation within the next six
billing cycles. The Returned Payment Fee for Iowa residents
is $27 for the first violation and $30 for each subsequent

violation within the next six billing cycles. If the Returned
Payment Fee is greater than the Minimum Payment Due, the
fee will be equal to the Minimum Payment Due.
From time to time, we may let you skip or reduce one or
more monthly payments during a year and/or we may
temporarily reduce or eliminate certain INTEREST
CHARGES on all or a portion of your Credit Card account
balance or offer you other special terms. If we do, we will
advise you of the scope and duration of the applicable skip
or promotional feature. When the skip or promotional feature
ends, your regular rates and all the terms of the Agreement
will resume.
7. Minimum Payment - Late Payment Fee. The “Minimum
Payment Due” must be received by us by the “Payment Due
Date.” If it is not, we may apply a Late Payment Fee of up to
$27 for the first violation and up to $38 for each subsequent
violation within the next six billing cycles. The Late Payment
Fee for Iowa residents is up to $27 for the first violation and
up to $30 for each subsequent violation within the next six
billing cycles. If such charge would result in an INTEREST
CHARGE greater than the maximum allowed by law, we will
only charge the maximum allowable rate. Your Minimum
Payment Due will be 3% of the New Balance plus any Late
Payment Fee (with a minimum of the lesser of $27 or your
New Balance) and any amount over your credit limit and past
due amount.
8. How to Avoid Paying Interest on Purchases. There
may be different treatment of INTEREST CHARGES for
Purchases, Balance Transfers, and Cash Advances, even
though they are computed the same way. You may avoid
paying an INTEREST CHARGE on Purchases if we receive
the entire New Balance by the Payment Due Date. If we do
not receive the entire New Balance by the Payment Due
Date, the INTEREST CHARGE will be charged on the
Purchases from the date of the transaction. INTEREST
CHARGES on all other balances, including Cash Advances
and Balance Transfers, begin on the transaction date and will
be assessed even if your entire New Balance is paid by the
Payment Due Date.
9. Computing Your INTEREST CHARGE. We figure the
INTEREST CHARGE on each Credit Card account by
applying the periodic rate to the “Average Daily Balance” of
each Balance Category on the Credit Card account, including
current transactions. Balance Categories include Purchases,
Balance Transfers, Cash Advances, Introductory Rates and
any special rate offers we may make available from time to
time. If you are charged interest, the charge will be no less
than $1.00 (the minimum interest charge will appear as
“Minimum Charge” in the fees section of your statement).
a. Average Daily Balance. To obtain the daily balance
for each Balance Category we take the beginning balance
each day and add new transactions applicable to each
category, and subtract any payments, credits, and refunds
applied to the category. To figure your Average Daily
Balance for each Balance Category, we add all your daily
balances and divide by the number of days in the billing
period.
b. Figuring the INTEREST CHARGE. We compute the
INTEREST CHARGE for each Balance Category by
multiplying these Average Daily Balances by the applicable
Daily Periodic Rate, and then we multiply the result by the
number of days in the billing period. To determine the Daily
Periodic Rate for each Balance Category, we divide the
applicable ANNUAL PERCENTAGE RATE in effect for the
billing period by 365 (366 for leap year). The way we get the
ANNUAL PERCENTAGE RATE for each Balance Category
is described below under “Fixed Rate” and “Variable Rate.”
c. Fixed Rate. Introductory ANNUAL PERCENTAGE
RATES for Purchases, Balance Transfers or Cash Advances
may vary, if applicable. Please refer to your Account Opening
Disclosures for specific introductory period and ANNUAL
PERCENTAGE RATES associated with your Account. After
the Introductory Period ends, your regular ANNUAL
PERCENTAGE RATES for Purchases, Balances Transfers
or Cash Advances will apply.
d. Variable Rate. The current ANNUAL PERCENTAGE
RATE for all variable rates is shown on the Account Opening
Disclosure which has been provided to you with this
Agreement. The Daily Periodic Rate and the corresponding
BW-CCAG (Rev. 10/2020)

ANNUAL PERCENTAGE RATE may change each month on
the first day of each of your billing cycles. Each date on which
the rate of interest could change is called a “Change Date.”
Changes will be based on changes in the “Index.” The Index
is the Prime Rate published in the “Money Rates” table of The
Wall Street Journal on the business day immediately
preceding the day your billing cycle ends. If the Index is no
longer available, we will choose a new index which is based
upon comparable information and will give you notice of our
choice. The ANNUAL PERCENTAGE RATE may increase or
decrease each month if the Index changes. Any new rate will
be applied as of the first day of your billing cycle during which
the Index has changed. If the ANNUAL PERCENTAGE
RATE increases, you will pay a higher INTEREST CHARGE,
which may result in a higher minimum payment.
The interest rate for Purchases and Balance Transfers
on your Platinum Credit Card account is based on a variable
rate equal to the sum of the Index plus a “Rate Spread” of
11.74 to 19.74 percentage points, based on your
creditworthiness. The interest rate for Purchases (after the
Introductory Period) and Balance Transfers on your Cash
Back World Credit Card account is based on a variable rate
equal to the sum of the Index plus a “Rate Spread” of 12.74
to 19.74 percentage points, based on your creditworthiness.
The interest rate for Cash Advances on your Account is
based on a variable rate equal to the sum of the Index plus a
“Rate Spread” of 21.74 percentage points. Immediately
before each Change Date we will determine the new interest
rate by adding the Rate Spread to the Index. The new interest
rate will become effective at the start of your first billing cycle
after the Change Date. Only one ANNUAL PERCENTAGE
RATE and Daily Periodic Rate will be in effect for each
Balance Category during the billing period. The ANNUAL
PERCENTAGE RATE will not exceed the maximum rate
permitted by law. The effect of any increase in the ANNUAL
PERCENTAGE RATE and the Daily Periodic Rate would be
to increase the amount of INTEREST CHARGE or interest
you must pay and thus increase your monthly payments.
10. Transaction Fees. You also agree to pay us the
appropriate fees listed below (as permitted by applicable law)
which may be amended from time to time by us. You
authorize us to charge your Credit Card account for the
following fees due to us. Cash Advance fee: 4.00% of each
Cash Advance, $10 minimum. Balance Transfer fee 4.00%
of each balance transferred, $10 minimum.
11. Foreign Transaction Fee. Transactions that you make
in a foreign currency or that you make outside of the United
States of America even if it is made in U.S. dollars are
considered foreign transactions. If you make a transaction in
a foreign currency it will be billed to you in U.S. Dollars. The
conversion rate to U.S. Dollars will be determined by
Mastercard International in accordance with their operating
regulations or conversion procedures in effect at the time the
transaction is processed. Currently, their regulations and
procedures provide that the currency conversion rate they
use is either (1) a government-mandated rate or (2) a
wholesale market rate, whichever is applicable, in effect one
day prior to the processing date. We do not determine the
currency conversion rate which is used. You agree to pay
the converted amount in U.S. funds. In addition, Mastercard
will charge us (the Bank) an international transaction fee,
currently equal to one percent (1.00%) of the transaction
amount. We will charge you the international transaction fee
imposed on us plus an additional two percent (2.00%) of the
transaction amount whether that transaction was originally
made in U.S. dollars or was made in another currency and
converted to U.S. dollars. These two fees will be aggregated
and shown as one Foreign Transaction Fee on your
statement.
12. Other Fees. As allowed by law, we may charge, and
you agree to pay, fees for certain services or requests made
by you, such as but not limited to: Automated Teller Machine
(“ATM”) transactions conducted at machines not operated by
us, requests for copies of billing statements, sales drafts, or
other records of your Account, or if you request a
replacement card(s). However, we will not charge fees for
copies of documents requested for a billing dispute. These
fees may change from time to time. We will inform you of the
fee(s) that you will incur prior to when the applicable

service(s) is(are) provided or when you make the request(s),
as applicable. You authorize us to charge your Credit Card
account for any such fees that you incurs. We reserve the
right to waive a fee from time to time but a waiver does not
mean we will continue to waive such fee in the future.
13. Interest Charges for Covered Members of the
Armed Forces and Their Dependents: Federal law
provides important protections to members of the Armed
Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may
not exceed an ANNUAL PERCENTAGE RATE of 36%. This
rate must include, as applicable to the credit transaction or
account: the costs associated with credit insurance
premiums; fees for ancillary products sold in connection with
the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than
certain participation fees for a credit card account).
If you are a covered member of the armed forces or a
dependent, you will not be charged annual fees, transaction
fees, or penalty fees so that your cost may not exceed the
Military Lending Act ANNUAL PERCENTAGE RATE cap.
Armed Forces members and their dependents can hear
about the protections provided to them by calling 1-866-7612689 (TTY users call 1-800-659-5495).
14. Default. We may declare the entire balance for all
Credit Card accounts due and payable at once with or without
notice or demand if any of these events (a “Default”)
happens:
a. If you miss a payment under this Agreement or any
other obligation you owe us; or
b. If you violate any terms of this Agreement.
If you are in Default, we may terminate your Credit Card
account, make no more additional loans, and require you to
immediately repay the entire unpaid balance of all amounts
due on your Credit Card account, including but not limited to
all loan amounts, late charges and other charges assessed
but not paid, and all of the INTEREST CHARGES accrued
but not paid. If we terminate your Credit Card account, your
obligation to repay the amounts you already owe us would
continue.
At our option, we may also take action short of
terminating your Credit Card account. If we take such lesser
action initially, we reserve the right to terminate your Credit
Card account and accelerate all amounts due under this
Agreement regardless of whether any additional events have
occurred which would permit termination and acceleration.
15. Automated Terminal Services
a. Automated Terminals. You may use your Card in the
following automated terminals:
(1) Any Bank of the West automated teller machines.
(2) Any other automated teller machine that is
participating in a network and accepts our Card (“Network
ATM”) and
(3) Any point-of-sale terminal that accepts our Card
(“POS terminal”).
b. Services Available at an Automated Terminal
(1) You may use your Card at a Bank of the West or
any Network ATM to:
(a) Get a Cash Advance from your Credit Card
account.
(b) Get your Credit Card account balances. These
balances may not include some transactions recently made
in your Credit Card account. Some of the services described
in subparagraphs (a) and (b) may not be available at all
Network ATMs.
(c) You may use your Card at a POS terminal to
purchase certain merchandise. The amount of your purchase
will automatically be charged to your Credit Card account as
a Purchase.
c. Limits of Automated Terminal Services - Cash
Advances. You may get a Cash Advance from a Bank of the
West Automated Terminal up to an aggregate amount of
$500 each calendar day, provided that this amount does not
exceed your Credit Limit. This amount may be less for Cash
Advances from Network ATMs.
d. Card and Secret Code (PIN) Use. You are
responsible for all transactions in which you use your Card in
BW-CCAG (Rev. 10/2020)

an automated terminal, or the use of the Card by anyone else
who uses it with your permission. Security in use of the Card
is provided by the secret code, which we will provide you, and
the magnetically encoded stripe on the Card. Please keep
the Card safe and also protect the secret code. Use the Card
and the secret code as instructed at all times. Please notify
us of any mechanical or operating failure in connection with
the use of your Card. Do not permit anyone else to use your
Card and do not disclose your secret code or record it on the
Card. The Card remains the property of the Bank and can be
revoked and repossessed at any time. You must return it to
us when asked.
e. Fees for Using Automated Terminal Services. Fees
may be charged for transactions made at automated teller
machines not operated by us as described in paragraph 12Other Fees.
16. Lost or Stolen Card; Your Liability for
Unauthorized Use. Tell us AT ONCE if you believe your
Card has been lost or stolen. Telephoning is the best way of
keeping your possible losses down.
You may be liable for the unauthorized use of your Card
as a credit card. You will not be liable for unauthorized use of
your Card as a credit card which occurs after you notify us at
the telephone number or address stated in paragraph 17,
orally or in writing, of loss, theft, or possible unauthorized
use. In any case, your liability for unauthorized use of your
Card as a credit card will not exceed $50.00.
17. Where to Call or Write. If you believe your Card has
been lost or stolen or that someone is using your Card or
Credit Card account without your permission, call:
1-800-996-2638 (for TTY call 1-800-659-5495) or write to:
Bank of the West, BankCard Security Department, PO Box
2078, Omaha, NE 68103-2078.
18. Our Business Days. Our business days are Monday
through Friday, except for bank holidays.
19. Credit Investigation and Disclosure. You authorize
us, both now and in the future, to check your credit and
employment history and to release information about our
credit experience with you in response to legitimate credit
inquiries. If you believe that we have incorrect information or
have reported inaccurate information about you to a credit
bureau, please call us at 1-800-996-2638 (for TTY call 1-800659-5495). As required by law, you are hereby notified that
a negative credit report reflecting on your credit history may
be submitted to a credit reporting agency if you fail to fulfill
the terms of your credit obligations.
20. Security Interest. We have no security for any
amounts which become due under this Agreement, even
though any other agreement you may have with us, such as
a mortgage, may provide for such a security interest, unless
you have given us a specific security interest in connection
with this Agreement, which is described on the Supplement
attached to this Agreement.
21. Collection. You promise to pay all collection costs,
including, without limitation, mailgram charges, reasonable
lawyers’ fees and court costs, as permitted by law.
22. If There are More Than One of You. Each of you
individually, or all of you together, will be liable under this
Agreement. We may collect from or sue any one of you, or
make any settlements or extensions with any one of you,
without giving up our rights against the other. You understand
that any one of you can make Purchases, get Cash
Advances, or perform Balance Transfers under this
Agreement which will be binding upon all of you.
23. Compliance with Laws/Sanctions. You agree to
comply with all applicable laws and regulations, including
those relating to anti-bribery, anti-money laundering, the fight
against terrorism, and sanctions (“Sanctions”), that apply to
the Bank or BNP Paribas S.A. You represent that you are not
the target of Sanctions. You agree to hold the Bank harmless
from liability for any actions taken by the Bank to comply with
applicable laws and regulations, including Sanctions.
24. No Waiver of Rights. If we choose to waive any of the
terms or conditions of this Agreement on a case-by-case
basis, such as by not declaring the entire balance due when
the minimum monthly payment has not been made on time,
it does not mean that we have waived, or given up, our right
to exercise any of our rights or remedies under this
Agreement in the future. We are not required to use any

particular kind of demand or notice in order to collect
amounts due to us under this Agreement. No indulgence or
acceptance by us of delinquent or partial payments constitute
a waiver of our rights or of any provision of this Agreement.
No waiver of any existing default shall be deemed to waive
any subsequent default.
25. Changing Terms. We can change, add to, delete or
otherwise modify the terms of this Agreement at any time in
any way permitted by law. We will send you a notice of
change at least 45 days (or as required by applicable law)
before the effective date of the change. We do not have to
send you an advance notice of the change if it favors you,
such as by reducing rates, or increasing the maximum credit
limit. Except in cases where we are changing terms due to
the Minimum Payment Due not being received within 60 days
of the Payment Due Date, you agree that the change may
cover all transactions made 15 days after we mail the notice.
If you do not agree to the change, a method for rejecting the
change and closing the Account will be provided in the
Change of Terms Notice. You agree that if you use your
card after the effective date of the change, this will constitute
your agreement with the change.
26. Canceling this Agreement. We have the right to
cancel this Agreement at any time by sending a notice to any
one of you in writing. You also have the same right to cancel
this Agreement at any time by sending us a notice in writing
or calling the BankCard Center at 1-800-996-2638 (for TTY
call 1-800-659-5495). If this Agreement is canceled by you or
us, your obligation is to repay amounts you already owe
under this Agreement. In either case, the Account will be
closed and you will no longer have access to the Account.
27. Governing Law. This Agreement will be governed by
the laws of the State of Nebraska, and, as applicable, federal
law, regardless of where the transactions are made.
28. Monitoring/Recording Telephone Calls. Our
supervisory personnel may listen to and record your
telephone calls to us for the purpose of monitoring and
improving the quality of service you receive.
29. Severability. All other provisions of this Agreement
shall remain in full force even if one or more provisions of this
Agreement are held invalid, illegal, void or unenforceable by
any rule or law, administrative order or judicial decision.
30. Authorized User. If you elect to have an authorized
user, you will be liable for all transactions made by that user
on your Account. Any authorized user is not a contractually
liable party.
31. Our Communications with You. You agree that we,
any of our affiliates, agents, independent contractors or
service providers may monitor and record telephone calls
regarding your banking services to assure the quality of our
service or for other reasons. You expressly consent that we,
any of our affiliates, agents, independent contractors or
service providers may use written, electronic, or verbal
means, or any other medium, as permitted by law and
including, but not limited to, mail and facsimile, to contact
you. Your consent includes, but is not limited to, contact by
manual calling methods, prerecorded or artificial voice
messages, text messages, e-mails and/or automatic
telephone dialing systems. You agree that we, any of our
affiliates, agents, independent contractors or service
providers may contact you by using any e-mail or any
telephone number you provide, including a telephone
number for a cellular phone or other wireless device,
regardless of whether you incur any charges as a result.
32. RESOLUTION OF DISPUTES BY ARBITRATION.
PLEASE READ THIS ARBITRATION PROVISION
CAREFULLY. EXCEPT AS OTHERWISE PROVIDED, YOU
WAIVE YOUR RIGHTS TO TRY ANY CLAIM IN COURT
BEFORE A JUDGE OR JURY AND TO BRING OR
PARTICIPATE
IN
ANY
CLASS
OR
OTHER
REPRESENTATIVE ACTION.
a. Agreement to Arbitrate Disputes. Except as
otherwise provided, if you are unable to resolve a dispute
with us informally, you and we agree that the dispute will be
resolved through the binding arbitration process set forth in
this arbitration provision upon demand by either you or us.
b. Disputes Covered By Arbitration. Except as
otherwise provided, any dispute relating to or arising out of
your Account or this Agreement, including any aspect of any
BW-CCAG (Rev. 10/2020)

agreement governed by this Agreement, or prior or later
versions of this Agreement, and any changes to the terms of
this Agreement will be subject to arbitration. Except as
expressly provided, all disputes are subject to arbitration no
matter the legal theory or remedy (damages, or injunctive or
declaratory relief) sought. Disputes include (1) any
unresolved claims concerning any services relating to your
Account, including, without limitation, Purchases, Balance
Transfers, Cash Advances, INTEREST CHARGES, your use
of any of our banking locations or facilities, or any means you
use to access your Account; (2) any claims that arose before
you and we entered into this Agreement (such as disputes
related to advertising) and after the termination of this
Agreement; (3) not only claims made directly by you, but also
made by anyone connected with you or claiming through you,
such as an authorized user, a beneficiary, employee,
representative, agent, predecessor or successor, heir,
assignee, or trustee in bankruptcy; (4) not only claims that
relate directly to us, but also our parent, affiliates,
successors, assignees, employees, and agents and claims
for which we may be directly or indirectly liable, even if we
are not properly named at the time the claim is made; (5)
claims based on any theory of law, contract, statute,
regulation, tort (including fraud or any intentional tort), or any
other legal or equitable ground, and include claims made as
counterclaims, cross-claims, third party claims, interpleaders
or otherwise; (6) claims made as part of a class action or
other representative action, being expressly understood and
agreed that arbitration of such claims must proceed on an
individual (non-class, non-representative) basis; and (7)
claims relating to the enforceability or interpretation of this
arbitration provision. A party who initiates a proceeding in
court may elect arbitration with respect to any dispute
advanced in that proceeding by any other party. This
arbitration provision shall survive any termination of this
Agreement or your Account.
c. Disputes Not Covered By Arbitration. Disputes
filed by you or by us individually in a small claims court are
not subject to arbitration if the disputes remain in such court
and advance only as an individual claim for relief.
d. Opt Out. You have the right to opt out of arbitration
by sending a signed written notice stating your decision to
opt out of arbitration to BANK OF THE WEST at Loan
Servicing, P.O. Box 3631, Omaha, NE 68103 within 30 days
after the date you opened your Account (“Account Open
Date”).
e. Commencing an Arbitration. The party initiating
arbitration must choose one of the following arbitration
forums to administer arbitration under the forum’s rules
(except as modified by this Agreement): (i) the American
Arbitration Association (“AAA”) under AAA’s Consumer
Arbitration Rules available at www.adr.org or 1-800-7787879; (ii) JAMS under JAMS’ Comprehensive Arbitration
Rules & Procedures or Streamlined Arbitration Rules &
Procedures, including JAMS’ Consumer Minimum Standards
(but not JAMS’ Class Action Procedures), available at
www.jamsadr.com or 1-800-352-5267.
f. Arbitration Procedure. Arbitration shall be decided
by a single neutral arbitrator selected in accordance with
AAA’s or JAMS’ rules, as applicable. The arbitrator will
decide the dispute in accordance with the terms of our
agreements and applicable substantive law, including the
Federal Arbitration Act and applicable statutes of limitation.
The arbitrator shall honor claims of privilege recognized at
law. Except as otherwise provided, the arbitrator may award
damages or other relief (including injunctive relief) available
to the individual claimant under applicable law. The arbitrator
will not have the authority to award relief to, or against, any
person or entity who is not a party to the arbitration. An award
in arbitration shall determine the rights and obligations
between the named parties only, and only with respect to the
dispute in arbitration and shall not have any bearing on the
rights and obligations of any other persons, or on the
resolution of any other dispute. The arbitrator will take
reasonable steps to protect your Account information and
other proprietary or confidential information. Any arbitration
hearing shall take place in the same city as the U.S. District
Court closest to your home address, unless the parties agree
in writing to a different location or the arbitrator so orders. If

you seek a total recovery of $10,000 or less, you may choose
whether the arbitration will be conducted solely on the basis
of documents submitted to the arbitrator, through a
telephonic hearing, or by an in-person hearing in accordance
with AAA’s or JAMS’ rules. At your or our request, the
arbitrator will issue a reasoned written decision sufficient to
explain the essential findings and conclusions on which the
award is based. The arbitrator’s award shall be final and
binding, subject to judicial review only to the extent allowed
under the Federal Arbitration Act. You or we may seek to
have the award vacated or confirmed and entered as a
judgment in any court with jurisdiction.
g. No Class Action or Joinder of Parties. You and we
agree that no class action, private attorney general or other
representative claims may be pursued in arbitration and no
such action may be pursued in court if either you or we elect
arbitration. Unless mutually agreed to by you and us, claims
of two or more persons may not be joined, consolidated, or
otherwise brought together in the same arbitration (unless
those persons are joint account holders or beneficiaries on
your Account or related accounts, or parties to a single
transaction or related transaction).
h. Public Injunctive Relief Waiver. If either you or we
elect to arbitrate a dispute, neither you nor we will have the
right to seek a public injunction in arbitration or in court, if
such a waiver is permitted by the FAA. If any waiver of
public injunctive relief in this arbitration provision (as set
forth in any part of this arbitration provision) is found to be
invalid or unenforceable, and that decision is not reversed
on appeal, any claim for a public injunction will be decided
in court after all other disputes to be decided in arbitration
under this arbitration provision are arbitrated and the
arbitration award regarding individual relief has been
entered in court. In no event will a claim for public injunctive
relief be arbitrated. As set forth in “Severability” below, the
invalidity or unenforceability of this paragraph will not affect
the validity or enforceability of the remainder of this
arbitration provision.

i. Arbitration Costs. We will pay the filing,
administrative and/or arbitrator’s fees or compensation
(“Arbitration Fees”) that we are required to pay pursuant to
the arbitration forums’ rules or the law. In addition, with
respect to Arbitration Fees that you are required to pay under
the arbitration forum’s rules in connection with an individual
arbitration you have commenced against us, if you would like
us to consider paying them because you are unable to do so,
you must first request a waiver or reduction of the Arbitration
Fees from the arbitration forum. If the request is denied or
you remain unable to pay the reduced Arbitration Fees, we
will consider paying them if we receive a written request by
you sent to Bank of the West Legal Department, 180
Montgomery Street, San Francisco, California 94104.
j. Applicable Law. You and we are participating in
transactions that involve interstate commerce and this
arbitration provision and any resulting arbitration are
governed by the Federal Arbitration Act. To the extent state
law applies, the laws of the state governing your Account
relationship apply. No state statute pertaining to arbitration
shall apply.
k. Severability. Except as provided in ”Public Injunctive
Relief Waiver,” if any part of this arbitration provision
regarding joinder, consolidation, class actions, class
arbitrations, general public or private attorney general
actions is found to be illegal or unenforceable, that invalid
part shall not be severable and this entire agreement to
arbitrate disputes shall be unenforceable. If any other part of
this arbitration provision, including “Public Injunctive Relief
Waiver,” is deemed to be invalid or unenforceable, that
invalid part will be severed from the remainder of this
arbitration provision and the remainder of this arbitration
provision will be enforced.

Your Billing Rights
Keep This Notice for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
•

What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
Bank of the West
BankCard Customer Service Department
PO Box 2319
Omaha, NE 68172-9793
In your letter, give us the following information:
• Account information: Your name and Credit Card
account number.
• Dollar amount: The dollar amount of the suspected
error.
• Description of problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated
payment is scheduled, if you want to stop payment
on the amount you think is wrong.
You must notify us of any potential errors in writing [or
electronically]. You may call us, but if you do we are not
required to investigate any potential errors and you may have
to pay the amount in question.

After we finish our investigation, one of two things will
happen:

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct. While we investigate whether or not there has
been an error:

If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.

BW-CCAG (Rev. 10/2020)

•
•
•

•
•

We cannot try to collect the amount in question, or
report you as delinquent on that amount.
The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
While you do not have to pay the amount in
question, you are responsible for the remainder of
your balance.
We can apply any unpaid amount against your
credit limit.

If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.
If we do not believe there was a mistake: You will
have to pay the amount in question, along with
applicable interest and fees. We will send you a
statement of the amount you owe and the date
payment is due. We may then report you as
delinquent if you do not pay the amount we think
you owe.

If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card and you have tried in
good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your Credit Card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
Bank of the West
BankCard Customer Service Department
PO Box 2319
Omaha, NE 68172-9793
While we investigate, the same rules apply to the disputed
amount as discussed above.
After we finish our
investigation, we will tell you our decision. At that point, if we
think you owe an amount and you do not pay, we may report
you as delinquent.
NOTICE FOR WISCONSIN RESIDENTS: Any holder of this
Credit Card Agreement is subject to all claims and defenses
which the debtor could assert against the seller of goods or
services obtained pursuant hereto or with the proceeds
hereof. Recovery hereunder by the debtor shall not exceed
amounts paid by the debtor hereunder.

BW-CCAG (Rev. 10/2020)

